<html>
<title> - PROPOSED FISCAL YEAR 2002 BUDGET REQUEST FOR THE FOREST SERVICE</title>
<body><pre>[Senate Hearing 107-114]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-114

    PROPOSED FISCAL YEAR 2002 BUDGET REQUEST FOR THE FOREST SERVICE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

 TO CONDUCT OVERSIGHT ON THE UNITED STATES FOREST SERVICE FISCAL YEAR 
                              2002 BUDGET

                               __________

                              MAY 8, 2001


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
74-777                     WASHINGTON : 2001

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  FRANK H. MURKOWSKI, Alaska, Chairman
PETE V. DOMENICI, New Mexico         JEFF BINGAMAN, New Mexico
DON NICKLES, Oklahoma                DANIEL K. AKAKA, Hawaii
LARRY E. CRAIG, Idaho                BYRON L. DORGAN, North Dakota
BEN NIGHTHORSE CAMPBELL, Colorado    BOB GRAHAM, Florida
CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
RICHARD C. SHELBY, Alabama           TIM JOHNSON, South Dakota
CONRAD BURNS, Montana                MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
CHUCK HAGEL, Nebraska                DIANNE FEINSTEIN, California
GORDON SMITH, Oregon                 CHARLES E. SCHUMER, New York
                                     MARIA CANTWELL, Washington

                    Brian P. Malnak, Staff Director
                      David G. Dye, Chief Counsel
                 James P. Beirne, Deputy Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                  Mark Rey, Professional Staff Member
                    Kira Finkler, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     4
Bosworth, Dale N., Chief, Forest Service, accompanied by Randall 
  Phillips and Hank Kashdan......................................     7
Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
Johnson, Hon. Tim, U.S. Senator from South Dakota................     2
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     3
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     5
Wyden, Hon. Ron, U.S. Senator from Oregon........................     6

                                APPENDIX

Responses to additional questions................................    37

 
    PROPOSED FISCAL YEAR 2002 BUDGET REQUEST FOR THE FOREST SERVICE

                              ----------                              


                          TUESDAY, MAY 8, 2001

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Larry E. Craig 
presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. The Committee on Energy and Natural 
Resources will be in session. Good afternoon, everyone. Today 
the committee will review the fiscal year 2002 budget proposal 
by the U.S. Forest Service. The full committee chairman, Frank 
Murkowski, is delayed. In his stead, I will chair the hearing 
until he arrives.
    Today's hearing also marks an opportunity, I think, for the 
committee to hear from the new Chief of the U.S. Forest 
Service, Dale Bosworth. I want to personally welcome you, Dale, 
to the committee, congratulate you on your appointment and 
state, without reservation, that I, and I think a good many on 
this committee, look forward to working with you.
    Dale was previously a regional forester in Region I, which 
covers northern Idaho and, before, the regional forester in 
Region IV, which happened to cover southern Idaho. As he is a 
1966 graduate of the University of Idaho, I believe that the 
Gem State can stake a very good claim, I would trust, on his 
affections. Only time will tell.
    [Laughter.]
    Senator Craig. It is also worthy to note that Dale is a 
second-generation Forest Service employee. The agency's ethos 
and principles run deep in the Bosworth household. When Dale 
was appointed last month, I commended the President for 
restoring continuity to the Forest Service decision-making by 
selecting a chief from among the agency's scientists and 
resource managers.
    I note that, until recently, the Forest Service was unique 
among government agencies in eschewing political patronage. Any 
entry-level Forest Service employee qualified and trained in 
natural-resource science and conservation, and by the merit of 
their own hard work, could strive to excel and dream to someday 
become the Chief of the U.S. Forest Service. Though you, Dale, 
the President, I think, has restored that dream for over 33,000 
employees of the U.S. Forest Service, and I am eager to work 
with you to convert that dream into an expanding reality that 
returns decision-making to the professionals that have created 
a system of national forests that are both the envy of the 
world and an important contributor to the world's resource 
needs. Your appointment is a clear step toward that reality.
    With respect to the fiscal year 2002 budget proposal, I 
concur with the administration's descriptions of it as a 
transition budget with programs proposed for funding the 
essential fiscal year 2001 levels. We will be working with the 
Chief, the administration, and the appropriations committees to 
shape that transition as we move through this session of 
Congress.
    There is, however, an important exception in the general 
overview, and that is a $660 million reduction in the Wildfire 
Management Account. That consists of a 32 percent reduction in 
this account. The fiscal year 2002 request is a significant 
increase over the fiscal year 2001 request, of course, predated 
the fires of the summer of 2000.
    In light of last year's fire season, we increased this 
account significantly. In anticipation of another difficult 
fire season upcoming and a backlog of fuel reduction and 
watershed rehabilitation needs, I believe it is inevitable that 
we will need to restore most, if not all, of the reductions 
from the fiscal year 2001 enacted budget.
    I look forward to working with my colleagues and the 
administration on this important task. The chairman of the full 
committee has just arrived.
    Senator Murkowski.
    [A prepared statement from Senator Johnson follows:]

 Prepared Statement of Hon. Tim Johnson, U.S. Senator From South Dakota

    Mr. Chairman, I am pleased that we are holding this hearing today 
on the Fiscal Year 2002 budget proposal for the U.S. Forest Service. 
Last year was a difficult year for our nation's forests. Wildfires 
raged through much of the western forests, leaving major damage that is 
still being cleaned up. The effects are still being felt in the Black 
Hills of South Dakota. The Forest Service has performed admirably in 
responding to the situation and they should be commended. Congress also 
did its part by enacting an emergency package that will help with the 
rehabilitation and future preparation efforts.
    To this end, I am pleased to see that many of the programs that 
will help to restore the health of the forests will receive adequate 
funding. But I am concerned about a few important programs that are 
slated to receive reductions and I think these plans need to be 
reviewed. The intent of Congress that was demonstrated in the passage 
of the emergency funding last year to address the fires across the west 
must be carried out so that the funds are properly allocated. I don't 
believe that Congress anticipated that any of the programs would be 
reduced when the emergency legislation was passed last year.
    In particular, I am concerned that plans to severely cut 
Restoration and Rehabilitation funding would set back the progress that 
has been made over the last several months. This program goes a long 
way towards restoring the soil and natural growth of the forests. The 
Chief of the Forest Service stated last week that demand for the use of 
the projects in this program are two to three times than the resources 
that are allocated for it.
    I am also opposed to the proposal to eliminate funding for the pest 
management contingency fund. Pine beetles have infected forests in the 
Black Hills and there have been ongoing efforts to combat their 
effects. The 10,000 acre Beaver Park area of the Black Hills National 
Forest is currently infested by the Pine Beetle and is the ideal 
habitat for this devastating bug. Aerial surveys last year revealed 
that up to 35,000 trees in the Beaver Park area have been infested by 
beetles in the last four years. Some have estimated that number will 
double this year. This will result in the possible loss of over a 
million board feet of timber.
    Because the Beaver Park area is designated as a roadless area, the 
Forest Service (USFS) is prohibited from entering the Beaver Park area 
and eliminating the Pine Beetle, but containing the infested area and 
protecting private property needs to be a top priority of the USFS. 
Pine Beetle outbreaks may be acceptable in a designated roadless area, 
but are not acceptable when they affect private lands. In order to 
protect our valuable natural resource, an insecticide needs to be 
applied to private timber by June. Eliminating the pest management 
contingency fund will make this task far more difficult and we should 
find a way to support this program.
    In addition to these concerns, I am also leading efforts to secure 
funding for a new Rocky Mountain Research Station near Rapid City, SD. 
The research station would house a new laboratory and facilities that 
would provide invaluable research on the unique natural resources of 
the central and northern Great Plains. The current setting of the lab 
is outdated but has performed important work for the Forest Service. 
Its focus on the ecosystems of the prairies and forests of the Great 
Plains is unique. However, it cannot continue its valuable 
contributions in its current location. As a member of the 
Appropriations Committee, I am making this a priority this year and 
would like to see funding allocated for design of the proposed site.
    Mr. Chairman, thank you for holding this hearing today and I look 
forward to working with the Forest Service on these projects.

      STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you very much, Senator Craig. And 
let me join our panel in welcoming Mr. Bosworth and 
congratulate you as the 15th, I believe, Chief of the National 
Forest Service. I think in the minds of many of the 
constituents in my State of Alaska, and certainly in the West, 
you have been entrusted with perhaps more power than a just man 
should have or that a sane man would want; but nevertheless, 
you have been given a grave responsibility.
    It has been written somewhere along the way that the--
authority without wisdom is like a heavy axe without an edge. 
And over the last years, many of us who represent resource-
dependent communities feel like we have been worked over with a 
very blunt instrument. But we are still alive and well and 
looking eagerly to make a responsible comeback through your 
assistance and efforts and contribution.
    Now, in choosing you, I think the President has certainly 
selected a talented and experienced resource professional. And 
I want to emphasis ``resource professional.'' You, sir, have 
had a career in forest-service management. You know what's good 
for forest health, and I think that is the prime responsibility 
for the Chief of the Forest Service.
    And when we talk about forest health, we are talking about 
making decisions--decisions on what's good for forest health. 
One of the things that you and I, in our conversation the other 
day--and I made the comparison--and perhaps it's an invalid 
comparison, but it represents action, vis-a-vis inaction. You 
know, when we had the mad-cow disease in Europe, they didn't 
waste any time making decisions about what to do. They removed 
the cows to stop the epidemic. Yet within the Forest Service, 
over this last management scheme, we found an inability to make 
decisions on forest health, whether it be the aftermath of 
fires or whether it be associated with infestation.
    The Forest Service seems to have adopted a policy where 
they will call a town-hall meeting and try and generate a 
consensus and be bound by the consensus, as opposed to the 
professionals within the Forest Service making a recommendation 
as to what's good for forest health, sticking to it, and making 
a decision. And I have been very, very frustrated in the 
inability of the management system within the Forest Service to 
make conscientious decisions based on forest health. When we're 
ill, what do we do? We go to the best professional physician we 
can find for treatment. When the forest is ill, it deserves the 
best forest management available. It deserves the evaluation by 
professionals, such as yourself, that have spent a lifetime in 
the study of the health of the forest. And if we can't depend 
on your recommendations, then I question just whose 
recommendation we can depend on. You have the trust, of course, 
of the public land.
    You know, I think it's somewhat ironic, Mr. Chairman, that 
the very day of your appointment, when it was announced, we had 
a government executive magazine issuing a government management 
report card. This graded the Federal agencies on their 
management performance, which I think is appropriate, and the 
Forest Service was almost at the bottom of the list of the 
agencies evaluated with what they called ``symptomatic 
management weakness.'' Now, I'm not going to ask you what that 
means now, but I would appreciate it if you would address it in 
your response and your statement to the record, because I think 
it necessitates corrective action in responding to system 
management weakness--or systematic management weakness and what 
you're going to do about it.
    I think this survey stands in sharp contrast to similar 
government-agency surveys and studies done in--well, the 
1960's, back in the 1970's and in the 1980's--in which the 
Forest Service previously scored rather high marks.
    So based on your testimony today, Mr. Bosworth, your 
professional commitment to public service, I believe that you 
are the right person in the right place at the right time to 
restore both the health of the national forest reputation and 
the health of our national forests, as well, and I certainly 
look forward to working with you.
    Senator Craig. Frank, thank you very much. Now let me turn 
to Senator Bingaman, who is the ranking member of the full 
committee.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much. Welcome, Chief 
Bosworth, and your colleagues. Let me mention four areas that I 
have particular concern and just--I'm sure you can address 
these in your comments or during the question-and-answer.
    First, I'm concerned that the budget requests dramatic cuts 
in the funding for the burned-area restoration and 
rehabilitation of national forests. I think the--last year's 
level was $142 million. The proposal is to go to $3 million 
this year, as I read the budget. I may be wrong about that. If 
I am, please correct me. These are important programs for many 
of the communities in my State where erosion and mudslides are 
a series issue. Ruidoso comes to mind as one community where a 
very severe fire was suffered last year. And I know that in 
your written testimony, you make reference--I think this is an 
exact quote--``to the lands that have been blackened by 
wildfire throughout the country to healthy and productive 
condition will require significant investment over many 
years.'' I guess I'm concerned that I don't see that reflected 
in the budget, that commitment to a significant investment.
    Second, the budget does maintain funding for the hazardous-
fuels reduction--to reduce the fire risk, as I understand it, 
and I appreciate that--but I am concerned about the relatively 
small percentage of projects--I gather about a third of the 
projects--that will actually take place in this urban/wild-land 
interface. It would seem to me we could do better. We could get 
more of that money directed toward the area where the risk is 
the greatest, and I hope we can discuss that.
    A third point is: I'm disappointed that we only have $2 
million requested for--within existing programs for the Youth 
Conservation Corps. This is the same level as last year. I've 
thought for several years now that this is an important 
program. There was a period in our history where it was funded 
at a very high level. That was prior to the Reagan 
administration. I would like us very much to look at that and 
see if we--if that's not an area that we could do better in.
    And finally, the funding that is proposed for assistance 
with the management of the Baca Ranch in my own State of New 
Mexico, this is an area that just was acquired last year by the 
Federal Government and the Forest Service. Funding, as I 
understand it, is inadequate to allow the area to be open to 
the public. I think we would need to increase that funding, 
perhaps by another million dollars or so.
    So those are four areas I wanted to particularly highlight 
and I look forward to your testimony. Thank you.
    Senator Craig. Jeff, thank you very much.
    Senator Craig Thomas.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman. Welcome. Chief. 
We're delighted to have you here and pleased that you're doing 
what you're doing. I will just take a second.
    We need, I think, obviously, to move towards more access to 
public lands. That's what they're for, is to protect the 
environment and yet have access and use them. I think we need 
to take a long look, obviously, at the roadless situation. And, 
frankly, having participated in some of those meetings, if 
you're going to do something like that with public input, it 
has to be done quite differently, in my view, than was the 
roadless thing that was there.
    Fire plans--obviously something major for us--I hope we 
take a lot of--more look at prevention and thinning and those 
kinds of things--management. Having been in a couple of forest 
fires things, the number of people that are there, it seems to 
me, is not necessarily the most important issue in terms of 
fire control.
    Accountability--I think we all have to work at that. There 
have been a number of forest plans, particularly the Black 
Hills and in Wyoming, where a relatively small part of the plan 
was ever accomplished. And I think it is important that, if 
we're going to have planning--and particularly as we can have 
it on forest plans, locally--input, then we have to have some 
accountability as--in accomplishing those kinds of things.
    So I look forward to working with you and am delighted 
you're here.
    Senator Craig. Craig, thank you. Now let me turn to Senator 
Ron Wyden of Oregon. I think, Chief Bosworth, Ron and I last 
year and for the last several years--I chairing the Forestry 
Committee; he, being the ranking member with me on the 
subcommittee--have demonstrated that good forest policy can be 
bipartisan, and we have worked hard to make that happen, and we 
have in many instances and will continue to do so, with your 
help and assistance.
    Senator Wyden.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman, I appreciate your 
holding the hearing. And let me echo your point. We have shown 
it can be bipartisan. We're going to insist that it's 
bipartisan, because it's clear that's the only way you make 
progress.
    Chief, I'll be very brief. First, it seems to me that 
people, property, and the environment are going to get hurt if 
the Fire Plan's restoration funds aren't restored. I think what 
you're hearing today, on a bipartisan basis, is: we're going to 
restore those monies, because the consequences--the 
alternatives--are just unacceptable.
    The reason I feel so strongly about this is that I'm 
convinced that fire plans are not just about fighting existing 
fires, but they're about taking steps to restore fires as part 
of the forest health regime so the forests are not so 
susceptible to fire devastation in the future. We hope you will 
be a force within the administration to work with us to try to 
turn this around so that we can have the kind of comprehensive 
approach that Senator Craig and I have sought on so many 
issues.
    The only other point that I would want to mention is, as 
you know, the County Payments bill was enacted last year. It is 
the first time a separate forestry bill went to the floor of 
the U.S. Senate in almost 20 years. The first time. And that 
money is supposed to get out across the country, beginning this 
fall, and we're very concerned that it be implemented 
expeditiously and in line with what was intended. This is 
another area where Senator Craig and I teamed up, with the help 
of Senator Bingaman and Senator Murkowski and others, and I'm 
anxious to hear your views on the implementation of that 
important law.
    Thank you, Mr. Chairman.
    Senator Craig. Ron, thank you. The Chief, today, is 
accompanied by Randall Phillips, Deputy Chief, Programs and 
Legislation, and Hank Kashdan, Director of Programs and Budget 
Analysis. Chief Bosworth, welcome before the committee.
    Oh, I'm sorry. One moment. We have just been joined by 
Senator John Kyl. John, do you have any opening comments?
    Senator Kyl. Mr. Chairman, I'd like to hear from the 
witness. Obviously, I want to talk about the forest health 
initiatives, but I'm sure that will be addressed.
    Senator Craig. Fine, thank you. Please proceed, Dale.

     STATEMENT OF DALE N. BOSWORTH, CHIEF, FOREST SERVICE, 
        ACCOMPANIED BY RANDALL PHILLIPS AND HANK KASHDAN

    Chief Bosworth. Thank you. Mr. Chairman and Mr. Bingaman 
and members of the committee, it is a privilege to be here 
today to talk about the President's budget for the Forest 
Service for fiscal year 2002. I would also like to say that 
I've only been chief now for a short period of time, so it's a 
particular honor to have this opportunity. Thank you.
    I'd like to express my gratitude to Secretary Ann Veneman 
for her confidence in me. And particularly, I would like to 
thank the employees of the Forest Service who have expressed a 
lot of encouragement and support to me. They're an outstanding 
group of employees, and I really do appreciate them. They have 
a lot of skill and a lot of ability.
    Today, I want to talk about, particularly, three things. I 
want to talk about the priorities that I'm going to look at 
during my transition and into the next several months; I want 
to talk about the National Fire Plan; and I want to talk about 
accountability. Accountability was one of the items in the 
Government Performance Report, the Forest Service did not do 
well in. I think we had a ``D'' rating in that performance 
report. With that rating, I would acknowledge that while there 
are problems with financial management, I would also recognize 
that the agency is doing something about it, so I'll talk a 
little bit more about that as I go through my remarks.
    The first thing, in terms of the priorities and the things 
I'm going to be looking at during the transition, one of the 
most important things we need to be focusing on is getting work 
done on the ground. I believe that the foundation of the Forest 
Service's credibility over the years has been our ability to do 
work on the ground. People don't expect their tax dollars to go 
into analysis and into paperwork; they expect to see something 
happen out in the woods. Therefore, we need to reestablish the 
connection between our national headquarters and our field 
offices, and I want to put a lot of emphasis and a lot of time 
into that. We need to make sure that the policies and 
initiatives that we take on at the national level facilitate 
getting work done on the ground and don't hinder getting that 
work done.
    One of the Forest Service's greatest strengths has been the 
ability of its line officers to make decisions and implement 
decisions taking local people's needs into account, work with 
the local communities, and come out with solutions and 
implement those jobs on the ground. We need to make sure that 
we continue or increase the ability of those local line 
officers. I am concerned that that ability has been somewhat 
limited in the last few years, and I think we need to 
reestablish it. I think we have to recognize that when you look 
at 192 million acres of national forest land, that every acre 
is not the same, and they are different from one community to 
another, and different from one national forest to another. 
Therefore, it doesn't work to have a one-size-fits-all solution 
to all of those different chunks of land. The bottom line is: 
we need to empower line officers to make and implement these 
decisions.
    We need to look at our organizational structure, both at 
our headquarters, as well as throughout the organization, to 
make sure that it is working for us the way it needs to be 
working for us. We need to make sure that the folks in the 
field have access to the people at the national office. I want 
to make sure that I have an open-door policy, that when 
district rangers in the field come in, that they can stop and 
talk to me, and we can exchange viewpoints. I also want the 
associate chiefs and deputy chiefs to have that same open door 
with people from the field.
    I think we also need to place a higher priority on our 
review system in the Forest Service, where we are going--where 
we set more general policies. Then go out and do reviews in the 
field to see whether or not the policies are working and 
whether people are getting the job done the way they're 
supposed to. My view would be to give more general policies and 
then follow up with an oversight-and-accountability process.
    A problem for us has been the amount of dollars that we 
have taken off the top that keeps dollars from getting to the 
ground. We need to assess our strategic goals and our 
objectives and then make sure that the funds that we're holding 
in our headquarters office are absolutely essential to 
accomplishing the mission of the agency. We have begun an 
assessment of the off-the-top dollars, and we're looking at--
almost line-by-line, and I'm going to be personally involved--
if we can reduce the amount that we are taking off the top.
    Another issue and concern is the aging of our workforce. 
About 32 percent of our workforce is going to be eligible for 
retirement in the next five years. As those people with that 
experience go out the door, that will leave a void. We need to 
make sure that we are recruiting the best and brightest people 
into the agency and that we have some of the old hands still 
around to help mentor those younger people coming in, teaching 
them the ropes and giving them the same opportunities most of 
us had when we came into the Forest Service. I think we have an 
unprecedented opportunity because, through the National Fire 
Plan, a number of new people with different kinds of skills and 
talents will be added to our workforce, and I think it will 
make a big difference.
    The National Fire Plan is a very, very high priority. The 
restoration that we're doing in the burned-over areas--as one 
of you mentioned, the blackened areas we had last year--do 
require some investment, and it was very helpful getting the 
dollars that we got for this fiscal year. We have set 
priorities and we are putting those dollars into the places 
where we can make the biggest difference, but we're going to 
continue to need to respond to the ever-increasing presence of 
homes in wild-land/urban interface and make sure that we're 
doing the kind of work that needs to be done, in terms of fuels 
management, to lessen the harsh impacts of wildfire around 
communities.
    The National Fire Plan budget proposed by the President is 
about $1.3 billion. That will allow us to continue investments 
to reduce the threat and the severity of wildfire in the wild-
land/urban interface. I know that it appears to a lot of people 
to be very, very expensive, and it is expensive; but I think 
when you compare it with the amount of dollars that it would 
take to suppress wildfire and to restore blackened lands in the 
future if we don't put in that kind of investment, it seems 
very, very reasonable.
    I think the National Fire Plan is a good example of what 
can be done when you get good cooperation between the 
administration and the Congress. I think it does a very good 
job of balancing forest restoration and community protection. 
I'm looking forward to those kinds of opportunities to work 
together for other kinds of national forest management policies 
in the Forest Service to see if we can't achieve that same kind 
of balance.
    Accountability is a big issue in our agency, and we have 
had some difficulty with our financial management; but we have 
put a fair amount of emphasis on it over the last two or three 
years. I think my predecessor, Chief Dombeck, did a good job in 
building the framework, and we just need to continue on that 
path and get a clean audit opinion. And we're going to continue 
to work hard to accomplish that.
    Again, I think accountability is more than just having good 
financial accountability. It also means delivering on 
performance expectations. We are going to be putting a lot of 
effort into making sure that what we say is what we actually 
end up doing. We need to deliver on our program commitments. 
Starting in 2003, we expect to have a basis for a field-based 
budget which I think will help us be more assured that we will 
be able to make the expectations that are delivered in our 
commitments that we make.
    I know that one area of concern has been the forest 
products and our delivery of forest products. And it appears to 
be a reduction in our target. I think that for us to be 
accountable and to deliver on our expectations, we need to 
first be very realistic. I think that the actual situation in 
the Forest Service today is that some of our capability to 
deliver has been diminished over the last several years, and we 
need to build that back up again. In fiscal year 2000-2001, we 
were expected to offer about 3.6 billion board feet; but in 
fiscal year 2000, we actually sold 1.7 billion board feet. We 
expect to offer a similar level this year. For fiscal year 
2002, we've looked very closely at our capability, and we 
estimate that the level we will be able to produce will be 
around the same as in fiscal year 2001.
    We need to be looking at our programs and looking at our 
deficiencies. We need to build our capability and look for 
future opportunities so that we can increase the production 
from national forest to both restore and protect the forest and 
deliver the products. I think this is going to take several 
years to accomplish that, but I believe it is doable, and I 
believe that it will lead to healthier forests and more 
productive forests.
    Stewardship contracting is an area that we're experimenting 
with, since we got the authority through Congress a couple of 
years ago to try. I think that those kinds of experiments, 
stewardship projects, give us a model approach toward trying 
different ways to get the job done on the ground, and I am 
looking forward to inviting folks out to see some of the actual 
accomplishments on the ground as they get completed. I think it 
is an excellent tool for us to experiment with to accomplish 
integrated resource management objectives. Accountability for 
production, I think, also has to take into account non-
industrial private lands, and our State and private forestry 
programs are going to continue to emphasize cooperation to 
enhance stewardship.
    I've been concerned about our range allotments. We've 
fallen behind in our environmental analysis. We're looking at 
what the factors were that contributed to that shortfall, and 
we will be developing some actions, or coming up with some more 
realistic schedules, as far as meeting the shortfall.
    We also need to be accountable for the quality of 
recreation that we deliver. Over 70 percent of the U.S. 
population lives very near a national forest or a national 
grassland, and we need to erase the maintenance backlog, both 
in our recreation facilities and roads so that we can provide 
quality recreation opportunities. We would like to work with 
you to develop some innovative solutions, because I don't think 
getting more dollars appropriated is going to be the total 
answer. I think reauthorization of the recreation fee demo 
would help a lot.
    So, in conclusion, I have heard Secretary Veneman say very 
clearly that she would like the Forest Service to be a world-
class provider of goods and services, and I think our agency is 
capable of being a world-class provider. I'm going to 
personally be devoting some attention to achieving that goal.
    Once again, I want to say that I'm honored to be here, and 
I look forward to working with you, and I would be happy to 
answer any questions you might have.
    [The prepared statement of Chief Bosworth follows:]

     Prepared Statement of Dale N. Bosworth, Chief, Forest Service

    Mr. Chairman, Mr. Bingaman, and members of the Committee, it is a 
great privilege to be here today to talk about the President's budget 
for the Forest Service in fiscal year 2002. Let me also say, as Chief 
of the Forest Service for only a short while, I am deeply honored to 
have this opportunity.
    First, I want to express my gratitude to Secretary Veneman for her 
confidence in me, and to say thank you to the dedicated, hard working 
employees of the Forest Service for their support and encouragement. 
Let me also express my appreciation in advance to you Mr. Chairman, to 
you Mr. Bingaman, and members of the Committee for working with the 
Forest Service and me during this transition.
    I would like to start my testimony by saying a few words about 
myself and my long-time commitment to the Forest Service. I have worked 
in the Forest Service for 35 years. I am what in the agency is often 
called a ``Forest Service brat,'' a title I inherited because my father 
was also a leader in the agency. It is fair to say I have a lifetime of 
being part of the Forest Service culture, traditions, and debates about 
management of America's forests and rangelands. Coming from this 
background, I am truly humbled by the duties entrusted in me as Chief 
and I am eager to lead this agency through challenging times.
    In my testimony today, I will talk about three areas of emphasis. 
First, I will discuss my priorities in the short term as the agency 
transitions its leadership. Second, I will discuss the National Fire 
Plan and how its strong focus on protecting communities from the 
dangers of catastrophic fire represents a broader focus on how, in 
general, we need to manage the Nation's forests and rangelands to 
protect communities and natural resources, and provide services and 
products on a sustainable basis. Third, I will discuss agency 
accountability. I recall about two years ago, then House Appropriations 
Interior Subcommittee Chairman Ralph Regula saying, ``Accountability is 
more than simply good accounting.'' I couldn't agree more. I will talk 
about accountability not only in the implementation of financial 
reforms, but also from the standpoint of delivering on agency 
performance commitments. In doing so, I will need to be perfectly 
candid about the immediate capability of the Forest Service to meet 
expectations of performance in two key programs.

                         SHORT-TERM PRIORITIES

    Mr. Chairman, as a Regional Forester in two regions over the past 7 
years, and in many other positions in the Forest Service, I have 
developed an appreciation for how the job being performed ``on-the-
ground'' by our employees is the foundation of our credibility with the 
public. This applies to researchers, employees on the National Forests, 
and employees who provide support to State, local, Tribal and 
international stakeholders. It is the responsibility of employees in 
the national headquarters and at the regional offices to ensure the 
best possible support is given to that ``on-the-ground'' job. Over the 
next several months, I want to emphasize what I think is essential in 
establishing a ``reconnection'' between the headquarters and the field. 
I want to make sure that ongoing initiatives to improve financial 
compliance and track natural resource information do not 
unintentionally hinder employees from performing the ``on-the-ground'' 
work. This assessment of ongoing initiatives does not alter the 
Agency's commitment to moving forward our commitment to financial 
accountability.
    One of the greatest strengths of the Forest Service is the ability 
of line officers at the forest and ranger district levels to make and 
implement decisions that take local community needs into account. I am 
concerned that in recent years this ability has been limited by an 
over-reliance on top-down initiatives that have dis-empowered local 
decision making, and have prevented the greatest possible funding from 
reaching the field unit level. I firmly believe that each field unit 
has different needs. A single management philosophy cannot produce 
healthy forests and rangelands that provide opportunities to deliver 
goods and services across the wide array of environments in which our 
National Forests and Rangelands exist.
    In the immediate future, I want to work closely with Secretary 
Veneman to assess recent initiatives to make sure the ability to manage 
and protect our diverse resources is not adversely affected. We will 
assess the agency's strategic goals and objectives to ensure full 
compatibility with local forest plans and priorities. To get the 
agency's work done ``on-the-ground'', it is critical to ensure funds 
held at the headquarters and regional levels are only those funds that 
are essential to accomplishing our mission. In recent years the amount 
of funds taken ``off the top'' has grown to unprecedented levels. While 
the majority of this funding ultimately goes to the field, too much 
does not. Too much of this money does not go to projects that directly 
support ``on-the-ground'' accomplishments. Only just recently the 
Forest Service, with help from field line officers, began the most 
intensive screening of this ``off the top'' funding in years. I will 
personally make the final decision on funds held at the headquarters 
level.
    I also intend to take a close look at the organizational leadership 
structure of the Forest Service. I want to make sure our line officers 
are empowered to make and implement natural resource management 
decisions at the field level, in the best tradition of our 
decentralized organization, while assuring that systems used in the 
field meet best business practices and are consistent and comply with 
national laws, regulations, and policies. I have already taken steps to 
realign the reporting structure of our Regional Foresters and Station 
Directors, so they have the best possible access to me, as Chief, and I 
assure you I will place priority emphasis on providing the best 
oversight possible for administration of the agency.
    An issue that concerns me greatly is often called ``graying of the 
workforce.'' In the next 5 years 32 percent of the workforce will be 
eligible for retirement. Only 9 years ago, the Forest Service had 643 
permanent employees less than 25 years of age. At the end of calendar 
year 2000, we had only 137 employees under 25. At the same time, the 
number of employees over 50 has climbed from 7,814 in 1992 to 10,232 
today. My fellow employees and I consider working for the Forest 
Service to be a privilege and an honor. I want this agency to be an 
employer of choice. Primarily as a result of implementing the National 
Fire Plan, for the first time in a long time, the Forest Service will 
be recruiting large numbers of new employees who will become leaders in 
the Forest Service by the end of this decade. We have an unprecedented 
opportunity to emphasize recruitment of a workforce that reflects 
America's broad diversity and provides the appropriate mix of skills 
and talents needed by the agency. Having described the value of new 
hires, let me also emphasize the importance of an appropriate balance 
of staff to other resources. This includes hiring full-time and 
temporary Forest Service employees to replace the large number of 
employees expected to retire in the near future. It also includes 
partnering with businesses, corporations, and other groups to 
accomplish important on-the-ground work and to increase the agency's 
ability to respond to local needs through increased local employment 
and community involvement. I intend to personally review and monitor 
how we balance the recruitment of our workforce and future leaders, and 
the use of local businesses and the private sector. Only through 
building an effective organization can we rise to meet the challenges 
of the future.

                           NATIONAL FIRE PLAN

    As a Regional Forester, I personally witnessed the catastrophic 
wildland fire that occurred in the Bitterroot Mountains of Montana last 
year. The cost to restore the lands in the Bitterroot, and other lands 
blackened by wildfire throughout the country, to a healthy and 
productive condition will require significant investments over many 
years. Further, there will continue to be a need to respond to the 
ever-increasing presence of people in the wildland-urban interface. We 
must continually assess how we invest to protect communities and 
resources, how we ensure our readiness to suppress wildland fire where 
necessary and manage fire where it benefits the land, and how we enable 
effective cooperative fire suppression and management among Federal, 
State, Tribal, and local organizations.
    Last year, the Forest Service spent $1.1 billion dollars for fire 
suppression. The President's budget in FY 2002 provides $1.3 billion in 
support of the National Fire Plan. This will allow the Forest Service 
to continue investments to reduce the threat and severity of wildland 
fire over the long term. Investing in firefighting and hazardous fuel 
reduction capability will lead to healthy, restored, fire-adapted 
ecosystems. While these investments may appear to be expensive, the 
annual cost of hazardous fuel reduction won't approach anywhere near 
the costs of catastrophic wildland fire suppression, the subsequent 
restoration of damaged lands, and the costs to the people living in or 
adjacent to our forests who could lose their homes, livelihoods, or 
even a loved one. The good news is that with a cohesive investment, 
costs can be reduced in the long term. Beginning with the programs 
implemented by the National Fire Plan we can develop a long-term 
strategy to provide healthy forests resistant to wildland fire, 
insects, diseases, and noxious weeds that provide a sustainable flow of 
products and services.
    The National Fire Plan is a good example of what can be achieved 
when Congress and the Administration work together. The Plan allows the 
Forest Service to improve the health of our Nation's forests by 
providing the resources needed to protect communities and natural 
resources from wildland fires and invasive species. Additionally, 
through our outstanding Research and State and Private Forestry 
programs, the Fire Plan provides funding to develop technologies that 
will increase the use of forest products by communities and industry. 
These programs have the potential to make it economically beneficial 
for the Forest Service and private industry to restore the health of 
the land by increasing the value and use of traditionally non- or low-
valued forest products. The balancing process of restoring forests and 
protecting communities will integrate local community employment and 
expanding local economic capacity with the generation of forest and 
range products to accomplish restoration objectives. The President's 
budget in fiscal year 2002 provides the emphasis and funding needed to 
integrate the National Fire Plan with the full array of agency 
programs. I look forward to working with you to extend this type of 
balanced policy to all aspects of Forest Service natural resource 
management.

                             ACCOUNTABILITY

    Protecting communities and restoring forests and rangelands under 
the National Fire Plan will require that the Forest Service be held 
accountable for program accomplishment. Accountability has been a 
significant emphasis of the agency for the past three years. Former 
Chief Mike Dombeck did a great job of building the framework to restore 
the financial integrity of the agency. Under the direction of Secretary 
Veneman, we will continue on the path of bringing our financial 
management and accounting of agency assets into full compliance with 
the best business management standards. We will continue our progress 
towards obtaining a clean audit opinion.
    However, as I mentioned earlier, being accountable is much more 
than having good financial accountability. It is delivering on program 
commitments. The President's budget for fiscal year 2002 continues what 
we began in fiscal year 2001. We are presenting our budget based on our 
capability to perform. Our budget is displayed in terms of activity and 
output measures that directly correlate to performance outcomes. These 
measures will, for the first time, be the basis for a field-based 
budget, which we are implementing in fiscal year 2003. These measures 
will form the core structure of our accounting system and will ensure 
consistency throughout the agency's budget formulation, presentation 
and accounting process. This structure will allow us to emphasize 
performance as an integral part of budget requests.
    Let me focus on areas of performance accountability that I know 
concern many members of this Committee. The President's budget for 
fiscal year 2002 proposes what may appear to be a significant reduction 
in the ``target'' for forest product accomplishment. To be accountable 
for performance, we must first be realistic about our capability. Mr. 
Chairman, in the area of forest products, because of policy emphasis 
over the past eight years, the Forest Service's capability has been 
reduced. Unfortunately, this has not been adequately reflected in past 
communication to Congress. For example, in fiscal years 2000 and 2001 
the agency was expected to offer 3.6 billion board feet (bbf) of timber 
volume. In reality the agency offered only 1.7 bbf in fiscal year 2000 
and expects, at best, to offer a similar level in fiscal year 2001. For 
fiscal year 2002 we have closely assessed our capability based on a 
variety of factors, including; the costs and time to navigate the 
complex appeals and litigation processes, the need for additional work 
directly attributable to legal decisions, the virtual elimination of a 
forest product pipeline, and the past inability of the Agency to view 
forest product production as an integral aspect of protecting and 
improving forest health. Mr. Chairman, we estimate that in fiscal year 
2002 the forest product offer level will be somewhere in the 
neighborhood of the FY 2001 level.
    This lower forest products estimate is not good for forest 
communities and it is not good for the environment. The lower levels 
may stress the already struggling natural resource dependent economies 
of many of our nation's forest communities. It also is not adequate to 
reduce the extraordinary amount of woody material contained in many 
parts of the National Forests to traditional historic conditions. 
Active vegetative management actions, including timber harvesting can 
restore forest ecosystem health, reduce invasive species, and reduce 
the risks of catastrophic fires.
    With this in mind, I believe being completely honest about 
capability issues such as this is an essential element of being 
accountable. In this fiscal year we will assess our programs to 
determine future opportunities as to how we can target programs and 
resources to increase the production of forest products, especially in 
areas as a means of restoring and protecting forest health. It may take 
several years to reach an increased level. Let me also make clear that 
such increases may not approach the levels or produce the revenue 
experienced in the late 1980's. However, the end result will be 
healthier, more productive forests.
    Increases in forest products from the National Forests will require 
full recognition that land health and the production of goods and 
services are interwoven and entirely compatible. Consistent with these 
combined goals, we must develop new methods for compatible use of 
renewable resources. We will closely assess the lessons learned from 
the end-results stewardship contract demonstration projects authorized 
by Congress. I believe this authority offers numerous opportunities 
with potential as an excellent tool to accomplish integrated resource 
management objectives.
    I am also concerned that we have fallen behind in the environmental 
analysis of many of the range allotments on National Forest lands. 
Despite a schedule that targeted completed analysis on 4,174 allotments 
by the end of fiscal year 2001, we currently expect to complete 3,398 
in this timeframe. We will focus close attention on the factors that 
have contributed to this shortfall, and develop actions to improve the 
situation within the available funding or develop a more realistic 
schedule.
    I believe that agency accountability for the production of forest 
and range products must take into account the capability of non-
industrial private lands to also provide a sustainable flow of 
products. Forest Service programs strongly support this objective. The 
fiscal year 2002 President's budget provides funding for our State and 
Private Forestry program to continue emphasizing cooperation with 
State, Tribal and local authorities in enhancing sustainable 
stewardship of the rural and urban forest. This strong relationship 
with our partners will be an integral part of our programs in the years 
to come.
    The Forest Service is also accountable for the services it provides 
to the Nation for recreation. We are, in many ways, America's backyard. 
Over 70 percent of the population of the United States lives within an 
easy day's drive of National Forests or National Grasslands. We are 
emphasizing performance accountability in how we meet the recreation 
demands of America. The attention of Congress to the condition of 
facilities used by the public has been greatly appreciated. We need to 
face the fact that a status quo approach to managing facilities will 
not halt the decline of our infrastructure. We would like to work with 
you to develop innovative solutions to this problem.
    An additional element to support the demand for quality recreation 
is the Recreation Fee Demonstration program. This program has been a 
success. The President's budget proposes a four-year reauthorization of 
this program.
    I believe accountability centers on the ability of the Forest 
Service to clearly state its performance objectives at specific budget 
levels and then, based on final appropriations provided by Congress, 
deliver on the accomplishment of those objectives. I am committed to 
providing the agency's line officers with the resources to perform 
``on-the-ground'' work, and systems that allow them to report how well 
they are performing. To accomplish this we must emphasize performance 
accountability as strongly as we emphasize financial accountability.

                               CONCLUSION

    Mr. Chairman, Secretary Veneman has clearly stated to me that she 
wants the Forest Service to be a world-class provider of goods and 
services for America. I know the agency has that capability. To that 
end, I intend to personally devote my attention to achieving this goal 
through emphasis on an organizational reconnection between headquarters 
and field units, integration of the National Fire Plan with the active 
management of our natural resources, and continued aggressive adherence 
to improved performance accountability. Let me again say that I am 
deeply honored to be the Chief of the Forest Service. I look forward to 
working with you and thank you for your support. I will be happy to 
answer any questions.

    Senator Craig. Dale, thank you very much. We'll do 5-minute 
rounds and do as many of them as the members would like to 
have.
    Several months ago, right after the inauguration, and 
President-Elect Bush became President Bush, I was asked to 
speak to the Capital Chapter of the American Society of 
Foresters meeting to kind of give an overview, Dale, of what a 
new administration might bring to the business of the U.S. 
Forest Service. At the conclusion of my remarks, the answer 
that stuck out most clearly in my mind was the--or the question 
that stuck out most clearly in my mind was the first one asked, 
probably by one of your employees. He said, ``Senator, if I, as 
a Forest Service employee out on the ground, make a decision 
based on science and based on the law, will I get support from 
this administration?'' Let me ask you the same question. If 
your employees out on the ground make decisions based on the 
science and the law, and are within the forest plan, are you 
going to support them?
    Chief Bosworth. The answer is an easy answer, and that 
answer is yes. I have a lot of confidence in our field folks. 
Our line officers make good decisions. They are capable people, 
and I do believe we need to support them. Now, obviously, we go 
through appeals, and sometimes we will find some process errors 
and what not, and sometimes decisions get overturned because of 
procedural errors, but we need to be supportive of the 
decisions that we've trained our folks to make in the field.
    Senator Craig. Great. You've spoken of, and several of us 
here have spoken, of the National Fire Plan and its importance, 
and especially as we look at this coming year. What 
specifically is the Forest Service doing to promote the 
cooperation with State and local governments and to communities 
to ensure readiness for this coming season?
    Chief Bosworth. We're working very closely with the State 
foresters. For example, most of the State foresters are very 
engaged with forest supervisors, and with the regional 
foresters, in identifying the communities at risk and 
identifying the areas that would be the highest priority for 
working around those communities in fields reduction and also 
for making sure that we have a fire-suppression workforce that 
will be fully capable of doing the job.
    One of the concerns would be that as we build up our fire 
workforce in the Forest Service, we don't want to steal from 
the State agencies and leave them short of hands. So we're 
working closely with them to keep that from happening, because 
it's really an interagency effort between the Forest Service, 
the Bureau of Land Management, the Park Service, Department of 
the Interior and the States. It's the total firefighting 
workforce we need to look at, not just one or the other.
    Senator Craig. Is the Forest Service currently training and 
certifying local individuals to be qualified to assist the 
Forest Service in firefighting?
    Chief Bosworth. Yes, that's happened in a lot of places. 
One of the things we found out last year was there are people 
who were capable of fighting fire that hadn't been through the 
certification. Maybe their equipment hadn't been certified 
ahead of time--or people hadn't been through some of the recent 
training and physical-fitness test requirements that you have 
to have. So while the fires were burning, we were doing some of 
the training and certifying some of the equipment.
    In many places around the country now, this spring, we've 
been working closely with the communities, and with industries 
and what not, to get people the training they're going to need 
and the certifications they need so that they will be ready to 
go. There's also a lot of interest in the private sector doing 
that, too.
    Senator Craig. Tell me about local equipment owners and 
operators and the ability to utilize that equipment. Where are 
you at this point with that? There was substantial 
dissatisfaction last summer with those who felt they were 
qualified and had their equipment certified but to not be 
chosen as equipment was hauled in from long distances to fight 
fires.
    Chief Bosworth. Last summer, there were criticisms that 
were going around about going outside the local area to get 
equipment and bring it in and to fight fire. I, personally--at 
least in the part of the country where I was last year--got 
involved in making sure that we were actually--that there 
weren't people who had equipment sitting around that wasn't 
being used. However, I'm sure that there were some instances 
where that was the case. I think, in general, most of the 
equipment was being used from the local areas.
    Another thing I discovered last year is ``local'' kind of 
depended on who you were talking to. If you were in one part of 
the country that didn't have any fires, like for where I was, 
``local'' meant all western Montana because they didn't have 
any fires on the one forest; but if you went to the forests 
that had the fires, ``local'' meant ``their town,'' not the 
town 12 miles down the road. One of the difficulties in getting 
our arms around that was: what are people really referring to 
when they're talking about local? We can do a better job. We're 
working on doing a better job, and I think we will be in a 
better position this year, too.
    Senator Craig. Well, my time is up. I'll call on my 
colleagues in the order in which they came to the committee 
this afternoon. Let me turn to Senator Bingaman.
    Senator Bingaman. Thank you very much. In the last 
Congress, I introduced a bill--Senator Domenici co-sponsored 
it--called the Community Forest Restoration Act, and we passed 
that into law. The program received $5 million for the first 
year of implementation. And I understand that later this month, 
the Forest Service will issue a request for a proposal--or for 
proposals for groups interested in obtaining some of these 
funds. This is for community groups to work on forest 
restoration projects.
    This is a program I think is beneficial to our State if we 
can keep it going for some period of years, and I wondered if 
you're familiar with it, if you would support going ahead and 
funding it, and, in future years, what your view is on it.
    Chief Bosworth. Yes, I am familiar with it. I think that 
local community efforts are the things that'll really make the 
difference for us, where we can build relationships working 
with the communities. We will continue the funding at that 
level again this next year, that is our intention. As I said, I 
think that building relationships with those communities 
working together, is really going to be the solution of many of 
our problems.
    Senator Bingaman. Well, thank you for that answer. Let me 
ask also about the Youth Conservation Corps which I mentioned 
in my opening statement. This is an area where I felt that we 
not only get a substantial benefit for the forests themselves 
and the work the Forest Service, but we also do a lot of good 
with some of the young people that are hired for those summer 
jobs. Is this something where--do you have any views as to the 
value of that program and whether we could do a little better 
with funding of that in the future?
    Chief Bosworth. My experience with the Youth Conservation 
Corps has been very positive. In fact, one of my children 
worked in the Youth Conservation Corps for the Park Service and 
had a great experience. I think that that's one way that we can 
educate young people about the outdoors. They can become our 
allies in the future. They get good work done. They also 
convince their parents that some of the things that we're doing 
might be good things. And so, all in all, I think it's a very 
positive program.
    Senator Bingaman. Well, thank you very much, and I'll work 
with you to see if there's a way we can do better by 
``plussing'' up the funding about--I remember a hearing we had 
in this committee 2 or 3 years ago where I believe I asking the 
chief of the Forest Service at that time the level of 
participation in the program. I think he said there were 590 
students involved in it nationwide, which was a pretty dramatic 
cut--reduction from the 30,000 we used to have each summer. So 
I do think we've got a long way to go to come back there.
    I mentioned in my opening statement about this--the 
proposed cuts for rehabilitation and restoration of lands 
damaged by fire. That is a big concern in my State, primarily 
as a result of last year's fires. I would be interested in 
knowing what your thoughts are as to how we solve that problem. 
I do think we need to try to get that funding up so we can do 
that work. These communities are hoping for that and expecting 
it.
    Chief Bosworth. The dollars that we got for this fiscal 
year, for 2001, we prioritized the work that needed to be done. 
We got the dollars to do the restoration work in those highest-
priority areas, and we're moving forward with that. Obviously, 
it wasn't enough to do the whole program, and we expected that 
the program would be over a several-year period. Obviously, if 
you don't get the same amount of money, you don't do the same 
amount of work. So some of the lower-priority projects would 
probably not get done with that level of funding. On the other 
hand, I think there are some opportunities for us to work with 
other kinds of funds where we can achieve multiple benefits and 
still be able to get some of that work done.
    Senator Bingaman. But you are in agreement that doing this 
kind of a program for a year or so really doesn't get the job 
done. This is going to have to be a sustained effort. Do you 
agree with that basic view?
    Chief Bosworth. Yes, I guess the way I would put it is that 
it does take several years to get a total restoration job done 
when you have a fire season like we had last year. The other 
part of it is that almost every year we're going to probably 
have new fires, and so we have to look and see what we need to 
do after those areas burn, as well.
    Senator Bingaman. Let me ask, finally, about this 
recreation. You point out in your statement that recreation is 
the fastest growing use of the national forests and grasslands. 
The budget that we've been given requests less money this year 
than was used last year for the recreation, heritage, and 
wilderness line items. That is a concern to me. It seems to me 
that your appreciation for the value of increased--or the 
extent of the increased recreational activity in the forest is 
somewhat contradicted by the budget that we have been given 
here. Could you explain to us where you and the administration 
are on this issue of making the forest available for 
recreation?
    Chief Bosworth. Well, as I stated in my opening remarks, I 
think that we're going to have to look at lots of different 
ways of being able to provide quality recreation opportunity, 
through partnerships with non-governmental organizations, 
through the recreation fee demo, and through the appropriations 
that we get from Congress. I think working those things 
together, we can provide for some high-quality recreational 
experiences.
    Senator Bingaman. My time is up, Mr. Chairman.
    Senator Craig. Thank you.
    Senator Murkowski.
    The Chairman. Thank you very much, Mr. Chairman. I'm 
concerned with a situation that I participated in in Billings, 
Montana, last year where Senator Burns of this committee held 
kind of an aftermath of the fire season out there and some of 
the difficulties and complexities associated with decision 
making by the incident commander on the scene to make timely 
decisions. And I'm looking at the record of that hearing here, 
and, you know, it goes back to the question of whether you, as 
an independent, I guess, incident commander--you feel you have 
the equipment necessary--the Cats, chainsaws, so forth and so 
on--``Do you have the authority to use them?''
    And the answer was, ``Well, we can't do that in many cases 
because we have to mitigate these constraints.'' ``Well, a 
mitigation of constraints can take time while the fire is 
burning and decisions are pending. When your fire is moving 
quick, you haven't got a lot of time to worry about how you're 
going to mitigate.''
    And the response from the commander was, ``In some cases, 
we may have to renegotiate. Let me use an example of a dozer, 
vis-a-vis, hand crews.''
    What I'm getting at, Mr. Bosworth, is the reality that, in 
this case, in the testimony that was given at this hearing, we 
had a case where the question was, would they allow the 
Caterpillar to go across the ``crick,'' and the incident 
commander didn't know the authority to initiate that action 
without going back and checking. And then his office had to 
check with Fish and Wildlife Service. And by that time, why, 
forget it, it was all gone. And surely, there was a potential 
reaction from muddying the stream with a cat. There's a 
potential reaction from the spring break-up, when high water 
muddies the creek, and so forth and so on, but, you know, 
clearly, you had a stalemate on your inability to react on what 
was good for the forest health.
    Now, how are you going to change that mentality so that you 
hold people accountable--and you mentioned in your statement 
you were going to hold people accountable for their actions--
but still give them the flexibility to make a decision when the 
forest health is in question?
    Chief Bosworth. I think the----
    The Chairman. Do we need to change laws for you? Or you 
tell us what has to happen to make it work.
    Chief Bosworth. Yes, I think that, depending upon what 
issue it is----
    The Chairman. This is the issue. The fire is burning on the 
other side, and the Cat's on this side.
    Chief Bosworth. Well, I just think depending on----
    The Chairman. The creek's in the middle.
    Chief Bosworth [continuing]. Depending on the circumstances 
on that particular. (inaudible) What I wanted to say was long 
before we have the fires, we have consulted with the Fish and 
Wildlife Service or National Marine Fisheries Service to 
identify the things that an incident commander ought to be 
aware of, or look out for. In most cases that I'm familiar 
with, there haven't been circumstances where we say, ``You 
cannot cross a creek,'' or, ``You cannot take water out of the 
creek.'' We would say, ``Here are the best places to take water 
out of the creek,'' or, ``Here are the ways that you can 
mitigate as you're fighting the fire.''
    I'm sure there's some circumstances where we have had some 
of those restrictions that have affected our ability, and I 
think we need to look at everyone of those and make some 
corrections in the direction that we give to the incident 
commanders when they come onto the job.
    The Chairman. Well, I can appreciate your caution, but I 
would try to get pre-clearance. If you're responsible for a 
forest health, that's--you know, there's going to have to be a 
prioritization made in advance whether you cross the creek and 
cloud the creek or you fight the fire. And this business of--we 
saw it in New Mexico--and the senators from New Mexico are much 
more familiar than I--the inability to make a decision early. 
And I would encourage you, very frankly and up front, to go in 
with your agencies and make sure that you have the ability to 
react and not wait, because this committee isn't going to wait. 
We've already gone through that with the last administration 
and weren't satisfied with their response.
    The second question I have is--as you may be aware, on May 
25 of this last year, the U.S. Court of Claims found illegal 
the Clinton administration's reason for its 1994 decision to 
terminate the 50-year timber contract of Alaska Pulp 
Corporation. And the Forest Service did terminate it. Then, on 
February 14, 2001, the Court of Claims sent the Forest Service 
another, well, so-called ``Valentine'' holding, on separate 
grounds, that the Government had earlier acted illegally. The 
Government acted illegally by un-unilaterally modifying the 
contract. And in a December 1999 memorandum that the committee 
has previously reviewed, the Forest Service warned that 
findings of liability such as those reached by the court could 
result in damages to the Government in excess of $1 billion, 
more in the tune of $1.2 billion for cancelling that contract.
    Now, let's assume for a moment that this warning proves 
accurate; and let's assume that the Forest Service is asked to 
reimburse the Federal judgment find for a billion-dollar 
judgment. How do you propose addressing this eventuality?
    Chief Bosworth. Well, obviously, if we were to have to 
reimburse the judgment find of over a billion dollars, our 
agency would be in very, very difficult circumstance. You know, 
what we would have to do is work with the administration and 
work with the Congress to figure out how we'd do that, because 
it would be a major, major problem for the Forest Service.
    The Chairman. Well, when you breach a contract, sometimes 
those are the aftermath. And it is unfortunate that the people 
responsible for this can't be held accountable, but some of 
them are up teaching in colleges in various other places where 
they are protected by academic structure.
    Thank you.
    Senator Craig. Thank you very much, Mr. Chairman. Let me 
turn to Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. As we have talked 
about in this subcommittee on many occasions, Mr. Bosworth, and 
I think I've told you, I want to see, as much as anything in 
the natural resources area, decisions get out of the beltway, 
get out of Washington D.C., and get to the local level. I'm 
absolutely convinced that there are creative ways to do that 
and still comply with the national environmental laws. I don't 
think this is mutually exclusive. To send something back to the 
States and local communities and say, ``Well, just go do your 
thing'' is not acceptable. I do think, though, that they ought 
to be given more freedom to meet national environmental 
standards.
    Now, recently Senator Craig offered an idea that I thought 
was very interesting, and I want explore it with you. He 
mentioned interest in examining, on a forest-by-forest basis, 
wilderness proposals. And it seems to me what is interesting 
about that idea is you could have plenty of opportunity for 
folks to comment at the local level, and at the same time look 
at it in the context of national requirements. What do you 
think of that idea?
    Chief Bosworth. I would have to do some thinking about it 
specifically, but I guess my reaction is that, through our 
forest-planning process, we've identified areas that are 
suitable for wilderness. We did most of our forest plans 10 to 
15 years ago, and those were laid out and worked with the 
public when we came out with those forest plan recommendations, 
or those final forest plans. I think looking at, I always 
believe that looking on a forest-by-forest basis gives good 
opportunities for local input and still gives the opportunity 
to look at the bigger picture, as well. So I think that there 
is some merit to that.
    Senator Wyden. Well, I thank you for that answer. I think 
my colleague, the chairman of the subcommittee, has a good 
idea. It's one of those ideas that he and I have talked about 
time and time again, that helps you forge a ``third path'' kind 
of approach, and I'm going to want to explore it with you.
    The other area I'd be interested in is getting an update on 
the county payments legislation. That money is supposed to get 
out to these resource-dependent communities this fall. And as 
you know, there is just a world of hurt in those communities.
    Let me also say that you and your staff have been very 
responsive in working with the chairman and I, in my view, in 
terms of trying to get us information to the extent you can 
given the fact that you're just getting started. So I think it 
would be helpful if you could say where you are for the record, 
in terms of complying with that law.
    Chief Bosworth. Okay. I'm going to ask Randy to give a 
little bit of additional information. But before I do that, I 
would like to say that I think that the County Payments Act is 
going to give the Forest Service a really great opportunity to 
develop some relationships differently with counties, and I 
think that with the new relationship, we're going to be able to 
go beyond just the county payments to learn how to work 
together better. I think the law will help facilitate that. Now 
I'm going to have Randy just give you a little more of an 
update specifically on where we are.
    Mr. Phillips. As you know, Senator, the County Payments 
really is looking at an old model that we used to use many 
years ago in Federal Government with the advisory committees. I 
think we're well on our way to implementing that law. In your 
State, all the resource advisory committee--the geographic 
distribution of those recourse advisory councils have been 
approved. They're in the process of recruiting membership for 
them. The State of Washington is the same way. In the State of 
California, the resource advisory councils have been formed. 
The State of Idaho, fully formed and approved. Arizona and New 
Mexico have each come in with two resource advisory councils. 
We're expecting the State of Montana to complete their work 
soon. The southern region of the Forest Service has, I think, 
13 resource advisory councils. So I'm real pleased to see the 
progress and the level of interest and excitement out there.
    The next step is the charter for each of those advisory 
councils. We expect to receive those within the next week or 
two along with membership for the secretary to approve those 
councils. I think everybody is responding very well to this.
    Senator Wyden. Let me ask one other question, if I might, 
Mr. Chairman. How is the announcement, Chief, with respect to 
additional public comment on the roadless issue affecting your 
implement of the roadless proposal now? Chairman Craig has 
heard me say this on many occasions. You know, I favor the 
multiple-use proposal very strongly. I've always thought that 
we could have, with sensible planning that was locally driven, 
the protection of additional roadless areas. And so we've tried 
on this committee, with fire and county payments, to figure out 
a way to do it in a bipartisan basis. What is your sense about 
how this comment effort, soliciting more comment, is going to 
affect the implementation of the roadless proposal as it stands 
now?
    Chief Bosworth. Well, on May 12, the roadless rule would go 
into effect. It's our intention to come out with a proposal in 
June to amend that roadless rule to help correct some of the 
concerns that both the court has pointed out, as well as many 
of the local State agencies and officials have pointed out. 
Through that amendment, then we'll be trying to correct some of 
those problems.
    I envision that is where we would end up, then, is having 
an opportunity for people with local knowledge and information 
to be able to correct some of the maps, some of the information 
that was in there, make some adjustments through a forest 
planning process to those roadless areas. I'd really have to 
wait and see what kind of comments we get back on our amended--
on our proposal to amend the rule and see what kind of 
adjustments we'd make in that.
    Senator Wyden. Thank you, Mr. Chairman.
    Senator Craig. We've been joined by Senator Domenici. Do 
you have any opening comment?
    Senator Domenici. That's fine, Senator.
    Senator Craig. Fine enough. Then let me turn to Senator 
Craig Thomas.
    Senator Thomas. Chief, I notice land and water conservation 
funding in your budget is about $130 million. How do you intend 
to use that? Is that acquisition? Or what is the purpose of the 
land and water conservation fund?
    Chief Bosworth. It would be pretty much acquisition of 
lands that are important lands. And those--each one of those 
gets approved by Congress on a case-by-case basis.
    Senator Thomas. What do you think of the notion that 
States, for instance, that have 25 percent or more public 
land--Federal Government land, maybe they're ought not be any 
net increase, that if you want to make the change, there ought 
to be some effort to make a trade?
    Chief Bosworth. Often, we would like to do land exchanges, 
and that is something that we do, and I think we do fairly well 
and often. I think there's also times when acquisition is the 
best way to accomplish the objectives, particularly when it's 
small parcels of land--relatively small parcels of land. But 
there's occasions where it makes sense to do some larger ones. 
You know I always prefer not to have a one-size-fits-all rule, 
because there sometimes are reasons why you might want to make 
some adjustments to that. I think that the idea of using land 
exchanges to achieve those objectives when we can, makes a lot 
of sense. I think we do a lot of good with some of the 
acquisitions that we do, though, and some of the really 
important----
    Senator Thomas. I'm sure you do, but some States have 85 
percent Federal land. Is there no limit to what--do you want to 
just take over the whole State?
    Chief Bosworth. Well, that is not my objective, to take 
over the whole State. I doubt if, in most of those cases, that 
we would be looking at large parcels of land acquisition.
    Senator Thomas. Well, I just think it is an issue that we 
ought to talk about, and we ought to have a policy. What about 
those areas that have been nominated for wilderness and have 
been sitting there for 15 years?
    Chief Bosworth. Are you asking me whether or not I think 
that we ought--they ought to be--is that in relationship to the 
land acquisition or the----
    Senator Thomas. No, I'm talking--they were nominated but 
they were never made wilderness, but you manage them as 
wilderness as if they are and seem to be happy to continue to 
do that.
    Chief Bosworth. Through our forest plans we identified 
those areas that were suitable for wilderness, and in most of 
the forest plans were we identified those lands suitable for 
wilderness, we have management direction that would not allow 
precluding the wilderness values. As we revise our forest 
plans, we will be looking at those areas again and deciding 
whether or not we still think those are areas that should be--
--
    Senator Thomas. But even if you do, to-be wilderness 
they're supposed to be created by the Congress, isn't that 
true?
    Chief Bosworth. The Congress is the only body that can 
establish wilderness.
    Senator Thomas. That isn't the way it works. I can tell you 
some that have been there for years that are still managed as 
wilderness but have never been treated by the Congress.
    Chief Bosworth. Well, again, I think that in most cases, 
what we've said is we want to give Congress the opportunity. We 
didn't want to preclude that option, and on certain areas where 
there is a high support for wilderness, for adding to the 
wilderness system. On the other hand, there are some areas that 
a lot of people would like to see wilderness that we have had 
management prescriptions through our forest plans to do other 
kinds of things.
    Senator Thomas. Well, again, I'm talking about a rule or a 
direction or something. Do you think they just ought to go on 
forever as being nominated; or should--after 10 years, they 
either are adopted by Congress or else they are not any longer 
nominated?
    Chief Bosworth. No, I think they need to be looked at every 
time we go through a forest plan revision.
    Senator Thomas. That's not the point. That's you making the 
decision every time you do it. You don't come to the Congress.
    Chief Bosworth. I guess I would argue that when we're going 
through a forest plan revision, that's a fairly intensive 
public-involvement process where we are getting----
    Senator Thomas. Well, we just said that Congress is the 
only one that has the authority to do it, but you are doing it 
without the authority simply by nominating them and leaving 
them there.
    Chief Bosworth. Yes. However, I don't think that we're 
managing them, in most cases, in exactly the same way. I would 
agree that we're not buildings roads in them; we're not doing 
any logging, and in wilderness area, we don't use a chainsaw to 
clear trails. In some of these areas that have not become 
wilderness, we have used chainsaws to clear trails.
    Senator Thomas. So you think the Forest Service ought to 
decide what is wilderness and what isn't?
    Chief Bosworth. No, I think that we ought to through our 
forest-planning process, working with the public, we ought to 
decide what the management prescriptions ought to be for areas, 
and then leave it to Congress to decide if they want an area to 
become wilderness.
    Senator Thomas. And do you think maybe you ought to bring 
them to Congress if you have some that ought to be that way?
    Chief Bosworth. I think that that's one choice. One option 
is for the administration----
    Senator Thomas. What's the other option?
    Chief Bosworth. Well, the other option is for us to, again, 
through our forest plan, to----
    Senator Thomas. See, I don't agree with that. I don't think 
that is what the law requires. It's not up to you to decide 
what's wilderness for evermore, is it?
    Chief Bosworth. No, that's Congress's choice.
    Senator Thomas. Well, then why don't you do it that way?
    Chief Bosworth. The way I see it is that that's what we are 
doing.
    Senator Thomas. No, you're not. You're not bringing it to 
the Congress to be decided.
    Chief Bosworth. What we're doing is----
    Senator Thomas. The wilderness in Wyoming was an act of 
Congress.
    Chief Bosworth. That's right.
    Senator Thomas. Now there's lots of it that's been there 
just as long as that that has never been acted on by Congress.
    Chief Bosworth. There are areas in the national forest that 
are not wilderness, the Congress has not established as 
wilderness----
    Senator Thomas. They're managed like wilderness, I can tell 
you that, in the ones that I'm familiar with up around 
Kemmerer, Wyoming, and the Tetons.
    Chief Bosworth. There are places in the national forest 
system where we are not building roads into them, where we're 
not doing logging, but----
    Senator Thomas. I can see we're not going to get a response 
that--I mean, I understand. You're saying if you want to do 
that, you will do it whether the Congress approves it or not.
    Chief Bosworth. I obviously see it different than you. Only 
Congress has the ability to designate wilderness and----
    Senator Thomas. What's the difference if you manage it as 
wilderness whether it's designated or whether it isn't?
    Chief Bosworth. Well, it depends on how long?
    Senator Thomas. Well, 15, 20 years?
    Chief Bosworth. Fifteen years, yes. And then you examine it 
again through the forest plan.
    Senator Thomas. Okay. I don't agree with you, Chief, and 
we're going to try and do something about it. I'm for 
wilderness if it's nominated and we agree to it, fine; but I 
don't think it's right to have the forest--or someone nominate 
it and you manage it that way without coming to make the final 
decision where the decision is supposed to be made.
    Chief Bosworth. Well, I would be happy to have some 
discussions to try to understand the difference between what I 
think I'm saying and what I think that you're talking about.
    Senator Thomas. I think it's pretty clear, and I will help 
you understand it, if you want me to.
    Chief Bosworth. All right.
    Senator Thomas. Thank you.
    Senator Craig. Senator Kyl.
    Senator Kyl. Thank you, Mr. Chairman. And, Chief, welcome. 
Just about four quick things I would like to bring to your 
attention. Then any comments you'd make is fine.
    The folks I've dealt with for the Forest Service out in 
Arizona have been cooperative and responsive to me, and I want 
you to know that; but I do get comments from time to time from 
folks that think things could be a little better.
    One rancher friend of mine, for example, who has good 
relationship with the Forest Service, a big allotment there, 
finds, from time to time, they're not talking to him before 
they do things. He went out on the range one day, and a bunch 
of guys were building fencing off his riparian there.
    He goes down, says, ``What are you guys doing?''
    ``We're fencing off your riparian area.''
    ``Well, I've got cows that need to drink there.''
    ``Well, we have a contract with the Forest Service to do 
this.''
    Nobody had talked to him in advance. That kind of thing, 
obviously, you don't win friends and influence people by doing. 
So the first point I would make is get the word out to folks, 
talk to the ranchers, talk to the folks that are on the land 
before you do anything. You can usually work out things in 
advance. And good relationships with these stewards, the 
ranchers who are on the range land are important for the Forest 
Service to be successful. Those are probably the exceptions to 
the rule, but it's a point I wanted to make, since those 
stories have been brought to my attention.
    On the matter that Senator Craig brought up, we are finding 
many States between 12 and 14 percent private, and it's going 
down fast. One of the ways it happens is perfectly innocent. 
You get inholdings in the forest, they would like to 
consolidate the holdings. Maybe some developer goes out there, 
and he puts together 500 acres worth of inholdings. Let's say 
it's just worth a million dollars. And you've got five acres 
right on the edge of town he would like to develop. It's a good 
opportunity for a swap, for an exchange, all above board, 
everything's fine, but it does mean that you've got 500--or, 
excuse me, 495 new Federal acres, versus five new private 
acres. And that kind of thing goes on and on and on and on. And 
pretty soon, even though the value is the same, you're down to 
a lot less quantity of private land. It's not for you to deal 
with, except in the land and water conservation context, and we 
do need to have some kind of a no-net loss of private lands.
    On the forest management--it's the main thing that I wanted 
to bring to your attention--the GAO had a study in 1999 that 
you're probably familiar with that said we've got 20 to 25 
years to clean up our forests or they're all going to burn down 
or die from disease. And at that time, there were about 39 
million acres that needed to be treated. Well, seven million 
have burned, so we're down to thirty two, but we need to get 
that treated in large-area treatment programs. The urban 
interfaces are fine. The experimental programs are fine, but 
obviously we're now at a point where we have got to treat large 
areas. Part of the problem is, we've lost a lot of the 
commercial logging, so the people are not there to do it, 
because it does take equipment, in many cases, to go in and do 
the thinning before you do the prescribed burning and so on.
    We've got some great programs out in Arizona. I'd like to 
invite you out, and I'll contact you about it. Maybe you've 
seen the work of Dr. Wally Covington at Northern Arizona 
University. He's got some great plots that show, over the 
years, what this management has done to help the forest. And so 
I would like to invite you out there.
    We need to get more money in the budget, and we need to get 
more actual work on the ground to treat these large areas. And 
any ideas that you have in that regard I would like to hear 
about, because if we need to do it through the appropriation 
process or some other kind of authorization, although I think 
you've got full authorization to do it, I would like to try to 
help, because that is probably my number-one concern, in terms 
of our forests out in Arizona. And as you know, we have the 
largest Ponderosa Pine forest in the world out there, and it 
needs help. Any comments would be appreciated.
    Chief Bosworth. I think some of the Coconino National 
Forest country is a great example of where we can do work and 
make the forest healthier and make it more resilient to fire. 
To get it closer to what it looked like, 50, 75, 100 years ago 
and also help really help the communities and provide jobs. So 
there's a real win-win in those things.
    Obviously, one of the solutions is to appropriate dollars, 
but I think that the stewardship contracting is another 
opportunity to help be able to get more work done using the 
concepts of bundling projects, end-results contracting and 
using the value of the material to be able to get more work 
done. So I think there are some of those kinds of things that 
we can experiment with, and I would very much like an 
opportunity to visit some of that area.
    Senator Kyl. We have three main--I'd love to invite you out 
there and will be in contact--three main problems. First of 
all, our logging industry--commercial logging industry is 
essentially gone, so there aren't the people there to do it. 
Secondly, there isn't a great market for the small-diameter 
product, as you well know. And third, you've got environmental 
groups, radical groups--most of the environmental groups are 
fully supportive of this, but you've got some radical groups 
that use the Endangered Species Act and other laws to try to 
stop the Forest Service from these projects and, therefore, it 
takes a lot of time. And we need, frankly, people in the Forest 
Service who are willing to go ahead even in the face of 
threatened litigation.
    I'm glad to see that, through some of the work we've done 
out there, you've got folks that are ready to do that. They've 
taken the action. They may have taken a temporary hit with the 
litigation. But it turns out, because they're right, that it is 
merely a delay, and then they move on with the project. We need 
to do that.
    Chief Bosworth. I also think our research branch of the 
Forest Service is doing some good research trying to make sure 
we understand what the effects of this kind of activity would 
be. It gives us a stronger support in litigation if we know if 
we have better science to back up our actions, and continuing 
with that research is really important to us.
    Senator Kyl. Well, if I can just make this point, the 
research has proven the technique. We've got to treat large 
areas now. I mean, I--frankly, I think we're continuing some 
research, but that's not where the emphasis needs to be now. 
The emphasis now needs to be on large-area treatment.
    Chief Bosworth. When I was referring to the research, I was 
thinking particularly of the effects that some of these field 
treatments have on soil, water, and other species. I think 
getting better information on some of that would also help us 
in----
    Senator Kyl. Since the chairman isn't paying attention, I'm 
going to go ahead, even though the light's off. Oh, he caught 
me. But just--Covington will show you, for example, even after 
a couple of years, the grasses come back, the protein content 
of the grasses is, like, quadrupled, you've got all kinds of 
critters coming in to eat the grass that weren't there before, 
and all the other things that that brings with it. The pitch 
content of the trees is, like, an order of magnitude greater, 
and therefore it's resistant to bark beetle and other things 
that afflict it. Obviously, you've got less competition for the 
nutrients and the water and the soil, and the trees are just 
healthier and it looks better, as you say.
    All of the effects are positive, and none of the effects 
are negative. When you compare to the dog-hair thicket control 
plot next door, it just looks awful, and it is awful. So the 
research shows it works. We just need to treat large areas. 
Thank you, Mr. Chairman.
    Senator Craig. I have mentioned to Senator Kyl that we may 
try to get the subcommittee out in field hearings, or at least 
a field tour, to look at the Covington work and others, and you 
might think about that, Chief. We might be able to spend a 
couple of additional days to look elsewhere where these kinds 
of activities are going on. We've clearly got to draw the 
public's attention to these kinds of efforts--and that, in 
fact, they are forest and environmentally enhancing and not 
destructive--if we're going to get anywhere. I think our PR 
efforts are almost as important as our policy efforts. With 
that, let me turn to Senator Pete Domenici.
    Senator Domenici. Thank you very much, Senator Craig. Might 
I just say it's 20 minutes of 4 o'clock on a Tuesday afternoon, 
and I want to compliment you. Having a hearing, having 
attendance, and having a number of Senators coming to 
participate would indicate to me that there is a genuine 
interest on your part, as subcommittee chairman, to see that we 
properly oversee what is going on and do our share to be 
participants in what the new administration does with reference 
to these--this valuable commodity we call our forests.
    Let me say, Mr. Bosworth--I don't know you very well, but I 
compliment you on the job you've got, and I know that it's a 
tough one. I hope very much that in 6 months or a year, after 
you've gone through a few more wars, that we will have you back 
here and you'll look as well as you do now.
    [Laughter.]
    Chief Bosworth. I hope so, too.
    Senator Domenici. There's a lot of things going to happen 
during your tenure that are very difficult, very contentious, 
and some will not want to hear facts, and others will want the 
facts their way. But you have a very difficult, yet real, job 
to provide Congress with factual information about what is 
going on out there. We can't go out and visit all of our forest 
lands, but I can tell you, you don't have to be much of a 
forest buff, nor a Senator who is generally knowledgeable about 
details, to know that a lot of America's forests, some that you 
manage and some that the BLM manages, are in desperate need of 
management and in desperate need of thinning, in desperate need 
of letting some sunlight in so that we have real trees instead 
of what we've got--the trees that don't even get a chance to 
grow because they're so thick, one upon another, it doesn't 
even look like the forest used to when we were growing up. And, 
you know, those are all part of somebody saying to Congress, 
``We have to--you have to help us.'' Perhaps it is more 
projects that are truly in the thinning--in the management area 
than we've ever had before because we're getting close to a 
difficult time for the forests of America.
    Now, having said that, I wonder if I might start--knowing 
that I don't want to burden you and your staff with digging up 
a lot of information--but I think it would be interesting if 
you could list for us--if the chairman agrees, submit to the 
committee a list of all of the lawsuits the Forest Service is 
involved in, with a one-line summary of them, as it pertains to 
contentions that you are not doing your job the way you should, 
or something you plan or propose is contested in the courts. I 
think it would be good for us to know a little bit about that. 
Can you get that done in a reasonable period of time?
    Chief Bosworth. Yes, we have summaries of all that already, 
and we can just put it together and submit it to you.*
---------------------------------------------------------------------------
    * The summaries have been retained in subcommittee files.
---------------------------------------------------------------------------
    Senator Domenici. Now, I have some very specific questions, 
but I want to ask you generally about roadless areas. I'm going 
to give you an example, and then I'm just going to ask you, 
where are the options going to come from? We have many areas in 
New Mexico that are called ``urban interface.'' They have been 
designated already by the Federal Government pursuant to the 
law we passed that we called ``Happy Forests,'' which we put 
$240 million in on the floor of the Senate--$120 for you and 
$120 for BLM. I was pleased to have drafted that amendment. 
Nobody, in the end, contested it, including the administration, 
so we got the money. There's some language in there that said 
you're going to inventory these critical interface areas and 
that you're going to be in a position to notify the areas of 
their situation. I think that's well along, so that you could 
go to New Mexico and other States, and they could tell you 
where one of these critical urban-interface areas.
    I want to talk about just a couple, generally, and ask you 
what's going to happen when you look at roadless areas. What 
happens if, in one of these areas, like the Santa Fe--the city 
of Santa Fe and their water supply, where the forest is right 
down--coming right down to their water supply, which are two 
lakes that ebb and tide, depending upon rain, but clearly that 
everybody knows, if we had a major forest fire, you probably 
would destroy the water of the city of Santa Fe. So people are 
now anxious--you all are, and others--to try to get this forest 
contained and thinned so we won't have a forest fire that will 
dump all of the ash into these two lakes and, you know, 65-
70,000 population have their principal water harmed--water 
supply.
    Well, if you drive along the forest, there's only one road. 
It's been there a long time. And you look up on your right-hand 
side, and the hill is a little bit low, but then it's very 
precipitous for maybe 200 yards, and it's full of growth. What 
I understand, unless you make for flexibility, there cannot 
even be a temporary road built to thin that forest beyond the 
one we already have. Now, I don't know whether it's right or 
not to build a temporary road to thin that, but I have been 
told what it will take to leave it as it is and do the work of 
thinning. It is a very tough job. You can't move the kind of 
equipment in. But some say, ``Don't worry about it. You can use 
helicopters to clean it.'' Well, that's an option, and I don't 
say that jokingly. Somebody has said that. Maybe you can find 
something that is not mechanized to move in there to clean it.
    But I wonder--using that as an example, and there must be 
hundreds like that, Mr. Chairman--when you take another look at 
the local input to roadless areas, will you look at what might 
be needed to thin, so we don't have fires; or, if we have a 
fire, to go ahead and build some temporary structures to avoid 
the total engulfing of an entire forest by stopping it with 
infringements upon the roadless area? Could you give me your 
thoughts about that, Chief? I would be very interested.
    Chief Bosworth. Yes, I would love to. The first thing is 
that under the roadless rule, if it is for protection of or for 
health and safety and what not--there's certain things that can 
be done under the current rule. At the same time, our intention 
would be to propose an amendment to the current rule that would 
allow local knowledge and local information to be considered 
and then, through the forest planning process, make some 
adjustments. I don't know the specific area of the Santa Fe 
National Forest that you're talking about, but it seems to me 
like those are the kinds of circumstances that we need to be 
looking real hard at as we revise the forest plans to see 
whether or not those are some opportunities to make some 
adjustments and to meet the needs of the local area. I mean, 
you're talking about a municipal watershed. It would be our 
intention or objective to manage the watershed so the people of 
Santa Fe would have clean water. We don't want to do things 
that are going to keep us from being able to do that. That's 
why I think it's important to have local knowledge and local 
input.
    Senator Domenici. I have talked with the chairman, because 
he has been in close contact with the administration regarding 
this area--this situation--and Senator Craig, I thank you for 
the many suggestions you're making--but I believe that 
modifications that--so as to avoid fires or so as to thin, 
where thinning is needed and already been determined to be 
necessary, ought to be an area that some kind of an option--I 
mean, I'm not saying build roads that are permanent in nature, 
but what if you just can't clean it up from the existing road 
without enormous expense? And I hope we'll be looking at that 
together, and, Senator, I assume that will be one of the things 
you're concerned about as you----
    Senator Craig. Yes.
    Senator Domenici. Now, let me say--in the thinning process, 
sometimes you have to cut tress, right?--not giant trees, but I 
think somebody has established--maybe seven, eight, nine inch 
trees have to be--that large, can be cut to thin an area. I 
would like to ask you if you would take a look at the forest in 
New Mexico where there is currently a plan, and the thinning 
would provide no trees for local use. They will all be burned 
as the end product of the thinning. Which forest is that? 
(Inaudible.) Santa Fe is one of them, and there may be others. 
Could I ask you if you would take a look and see why, since we 
have been so tedious in putting in in language that says, 
``Contract with local areas. Get this kind of salvage into the 
hands of people that can use it''--you know, in our State, they 
used it for decades and decades. And now, the Hispanic 
population in those areas can get in, and now we're going to 
clean it up, and we're going to have a plan that says we're 
going to burn it all. I wonder if you could review that for us. 
And my own view on it is--you know, there ought to be more than 
one option, in terms of what the final destination of the trees 
that are thinned is. Is it an ash heap, or is it somewhere else 
where it could be utilized? Could you, first, give me your 
thoughts on that, and then would you look into it for us?
    Chief Bosworth. Yes, I will look into it. My thoughts on 
that are--I would like to go back to when you were first 
talking about the size of the trees and a diameter limit. I 
really hope that we avoid specific diameter limits that cover 
all the countryside, because I think that it ought to be based 
upon a case-by-case basis. What is small diameter on one 
national forest may be pretty big for another national forest, 
and it really depends upon the circumstances.
    I believe that whenever we have the opportunity, we ought 
to utilize the material that we are removing, if it's possible 
to utilize it. Now, there are circumstances where it probably 
costs more to utilize the material than it would be to burn it 
where it is, depending on how far it is to a facility that can 
make use of it. Burning may be actually cheaper than removal in 
some cases, but we ought to have the options, we ought to look 
at the choices, and we ought to do what is best for the land 
and for the community. Again, it needs to look at the overall 
situation in that particular area.
    Senator Domenici. Let me say, in paragraphs three and four 
of the Wildfire Management in part of the FY-01 
Appropriations--that's called the Appropriations Act, title IV. 
We asked the Secretary of Agriculture to explain any 
differences between a cohesive fire strategy and proposed 
rulemaking such as roadless policy. Are you doing that? Will it 
be done? Did you understand my question?
    Chief Bosworth. Yes, I think I understand your question. Is 
there a difference between the cohesive strategy for fire and 
rulemaking, such as the roadless rule. I would assume that 
you're talking about----
    Senator Domenici. Well, we can just all look--you all can 
look at the statute and just read the language. We asked the 
secretary, which means you, to explain any differences.
    Chief Bosworth. I'm told we are doing that right now.
    Senator Domenici. Are you? Very fine. And more or less when 
might that be ready? You could ask your people. That's a tough 
assignment.
    Chief Bosworth. We should have a complete answer in the 
next 2 or 3 weeks, so we can get back to you on that.
    [The information follows:]

    The required analysis was conducted and published in the Roadless 
Area Conservation Final Environmental Impact Statement (FEIS).
    The framework for the fuel management section of the Roadless FEIS 
was structured using the same fuel management classification system as 
the Cohesive Strategy. Forest Service priorities as articulated in the 
Cohesive Strategy and implemented in the National Fire Plan will focus 
fuel treatment in the millions of acres at risk where access is not an 
issue. However, restrictions on road construction and reconstruction in 
inventoried roadless and contiguous unroaded areas could hinder fuel 
reduction treatments in those areas that are at moderate to high risk 
from uncharacteristic wildfire effects.

    Senator Domenici. My last question has to do with a very 
parochial one. Much of New Mexico's traditional communities, 
which I've explained a little differently before--they have, in 
the past, become very forest dependent. Now, previous policies 
that the Forest Service had deprived these lands and the people 
of activities that could help the people there and, at the same 
time, produce some local jobs. The '01 Interior Appropriation 
Act specifically asks that you utilize local resources. That's 
part of this appropriation bill. Now, there are a lot of people 
in my State that are very eager to participate in hazardous-
fuel reduction. They contact my office--and perhaps Senator 
Bingaman's--to get information on where this is going, where 
are we going to end up, with reference to their participation.
    First of all, I want you to know that some of these local 
people can't get information from the Forest Service as to 
where are we with reference to promoting local jobs. If there 
are none, maybe that's an answer, but I think they deserve, 
certainly, to know where things are.
    So these opportunities that I've spoken of were made--we 
lifted it very high--the expectation was pretty high when we 
passed the bill on the floor and when we talked last year with 
your predecessors. So what can we do to get the word out, and 
where should the people that are asking about this be referred?
    Chief Bosworth. I think there's a number of things that we 
could do to get the word out. Usually the way to do that is 
just through the local networks and having good communications 
with county commissioners and with community leaders. There are 
other more technologically advanced ways of doing that, too, 
but a lot of folks that want the jobs sometimes don't have 
access to that. So I think there are some things that we can do 
that are probably taking place in some communities but maybe 
not others, and we can look into that.
    I think that we are doing a pretty fair job of moving 
forward, in terms of trying to get the projects going and using 
the local employment. One thing I would want to say, though, is 
that in this first year we are pretty much dependent on 
already-existing projects in order to meet our accomplishments, 
the projects that we already had in the pipeline. And as we 
move forward with the implementation of the National Fire Plan, 
I think it's going to give us more opportunities to focus that 
around the communities and make more contacts with people, and 
I think we will be able to implement that even better as time 
goes on.
    Senator Domenici. Mr. Chairman, I want to say that the 
local managers, those who have been charged with the various 
forests in New Mexico--for the most part, I think the 
Government has done a great job of putting the right people in 
those places in New Mexico, but I think it is important that 
sooner or later, as soon as you get caught up, that the people 
in a State like mine where there is much different relationship 
between the forest and the people around it than perhaps any 
area you've worked at heretofore, that you come out and visit 
with these people, as a representative of the Government, to 
assure them--you know, first let them see who you are and talk 
with you and then to give them the assurance that this 
administration wants given to them regarding a better 
relationship between them and the forests of our country. Could 
I kind of generally ask if you would be interested in that at 
some point?
    Chief Bosworth. Yes, I would. One of the things I really 
want to do is get out to as many places as I can around the 
country on the national forests and the grasslands and visit 
with people. Parts of the country where I'm most familiar with 
are probably in places I won't go to, places that I've spent 
most of my career in, in the inner-mountain region, northern 
region. I need to get to places like the Southwest and Southern 
States and some of the Eastern States. I'm looking forward to 
doing that.
    Senator Domenici. Now, we gave you a hundred and twenty as 
a special appropriation in that amendment that passed, and then 
there has been an ongoing budget for 2001, and now we're 
talking about an ongoing budget for 2002. Is that hundred and 
twenty being appropriately integrated where we are going to--
not going to do less with the rest of the money--or ask for 
less because you've got the one twenty? That wasn't intended, 
you know, to permit us to cut. It was permitted to be in 
addition to, because we had some serious problems. What can you 
tell us about that?
    Chief Bosworth. I think the main point is that our regular 
program is going to continue on, and it's my expectation that 
it not affect the regular program. I still think that we need 
to integrate these programs to give multiple benefit as much as 
we possibly can, but we shouldn't be picking this up at the 
expense of other things.
    Senator Domenici. Okay, thank you. I think that's what we 
intended, and I hope you carry that out. Thank you, Mr. 
Chairman.
    Senator Craig. Pete, let me thank you for your leadership 
in this area. Obviously, with what happened at Los Alamos last 
year, all of our attention was drawn to that. Of course, 
following that were catastrophic fires throughout the inner 
mountain west that dramatized even more the kind of legislation 
we were talking about. And I will say, at the time that we 
worked with you on the Happy Forest bill, you know, there was a 
desire to try to put a diameter limitation in there as to the 
types of trees that could be removed, and we were able to avoid 
that. I hope we can prove to the public at large that 
stewardship programs in forest health is not the new cover up 
for green sale. That is not the intent at all. And I know that 
that was the concern of some, that, therefore, we need a 
diameter limitation.
    Chief, I'm very pleased to hear you speak out to the need 
to have the flexibility to make the decisions on the ground as 
to what needs to be removed and that you're not bound by 
legislation to specific trees. We're not in the business, nor 
should we ever get in the business, of legislatively micro-
managing the U.S. Forest Service, but there has been an attempt 
to do that at times, and I think that was your concern, 
Senator.
    Let me recognize Bill Eby, who is in the audience. Bill is 
sitting out there. Chief, you need an expert on county 
payments, he's the guy that helped us write it. He was a Forest 
Service fellow with this committee for the last year when we 
were working that bill energetically, and so he probably knows 
more about it than most of us. But I wanted to--I saw Bill in 
the audience and wanted to recognize him.
    Also, we have the Western States Legislative Forestry Task 
Force with us today, State legislators from Western States. I'm 
glad you're here. You're here at a very timely situation 
listening to the budget and the new chief. And as you know, 
that ultimately translates to, hopefully, activity on the 
ground in our Western States.
    Chief, Congress has worked hard to ensure that communities 
can work with the Forest Service in a collaborative fashion. 
Both Senator Wyden and I referred to that in our opening 
comments. How are you going to ensure that the Economic Action 
Program continues to serve as a link between the Forest Service 
and communities, especially to ensure that communities and 
local businesses can benefit from the reduction of hazardous 
fuels on public lands in the West--i.e., Senator Domenici's 
reference to the fact that the proposal, in that instance, on 
those forests was to burn it all, if you will?
    Chief Bosworth. Well, I think that there is a close 
relationship between the work that we need to get done on the 
ground and community health, community resilience and 
resistance, both from an ecological and economic standpoint. I 
think it's very clear that the direction we're giving to the 
regions and the forests is to focus on community action and 
work with communities in identifying the places, both on 
national forests, as well as the places between the national 
forests and private land, where the work can done. Through our 
State private forestry programs, we have opportunities to 
provide funding to help communities do some of the planning, 
and to help communities get some of the work done on private 
land. I think all of these different programs work together to 
accomplish that.
    Again, I think that the Payments-to-States legislation is a 
great facilitator in helping us work together to identify those 
kinds of projects, as well.
    Senator Craig. Monitoring for social and ecological 
effectiveness, as opposed to monitoring for implementation 
accountability of the National Fire Plan, is important to 
Congress. Where in the 2002 budget are the dollars to pay for 
that monitoring, and who will be responsible for it? And, of 
course, can we get a copy of your plan for effective 
monitoring?
    Chief Bosworth. It's my understanding it's in the fuels 
management dollars to do the monitoring. And what was the last 
part of your question?
    Senator Craig. Well, I'd like to see the plan as it relates 
to it and where, in your 2000 budget--you say the money is in 
the fuels area.
    Chief Bosworth. It would be the fuels management----
    Senator Craig. Can we get a copy of your plan for that 
monitoring?
    Chief Bosworth. Yes.
    Senator Craig. Okay.
    [The information follows:]

    Each Forest Land Management Plan identifies monitoring of social, 
ecological and environmental changes as a part of activities occurring 
on the forest. Project plans for fuel treatment, forest health (pest 
management), or other projects all have monitoring as a part of the 
plan. The Forest Service does not establish a separate account 
specifically identified for monitoring but rather includes monitoring 
as one of the activities occurring in each of the programs such as the 
National Fire Plan implementation.

    Chief Bosworth. I'd just like to say, too, that I think 
that an important aspect of what we're doing is to monitor 
public understanding and public acceptance. We have done a lot 
of monitoring on on-the-ground kinds of things, as in natural 
resource kind of monitoring, but the success of the fire plan 
is going to depend largely on how people feel and their 
attitude toward it. I think that's a real important aspect of 
the monitoring that we need to do.
    Senator Craig. Well, I think the Congress feels that way, 
too. Obviously, we've caught the public's attention. They're 
very curious about the need and what we've expressed as forest 
health and the consequence of bad health. And I think that, as 
we've phrased it, social and ecological effectiveness as a part 
of that monitoring is going to be critical in convincing the 
public that we're headed in the right direction.
    All of the increases in the economic action plan appear to 
be related to the needs of the National Fire Plan, yet no 
specific item shows as a follow-up to the initial emergency 
$12.5 million investment in planning, utilization, and 
marketing. How can we be assured that follow-up will happen?
    Chief Bosworth. Yes, I guess I'm going to have to get back 
to you, Mr. Chairman.
    Senator Craig. Fair enough.
    [The information follows:]

    In FY 2001, support through the National Fire Plan will establish 
two components: 1) Technology Implementation and State Capability 
Enhancement--ten multi-region projects, will strengthen the market. 
Also State utilization and marketing capabilities will by strengthened 
in 17 western states, to provide professional assistance to 1,400 
additional community level projects. 2) Financial Assistance--grants to 
support 150-200 local projects will emphasize market development and 
expansion, and increasing the market value of by-products of hazardous 
fuel reduction treatments.
    Activities in FY 2001 will demonstrate the ability to create, add 
value, and diversify the economic options of rural communities using 
small diameter material. It takes 6 to 18 months for projects that have 
an economic impact to become operational. Projects are currently being 
selected in all Forest Service regions and the Northeast area; program 
managers, with communities and local businesses, will examine the long-
term potential of biomass and value-added projects from hazardous fuel 
reduction and ecosystem restoration projects.

    Chief Bosworth. I don't have the answer to that.
    Senator Craig. Well, I think that is an important part of 
it as it relates, again, to the effective investment and how it 
gets utilized.
    Even before you were appointed to serve as the chief, there 
was a growing expectation of the things that you might 
accomplish. There's also an expectation that you should have 
accomplished all of these things yesterday. While change does 
not occur overnight, can you explain what particular priorities 
you hope emphasize in both the short term and the long term? 
Why don't you take me through the first year and then the first 
couple of years?
    Chief Bosworth. I will start with the short term. They are 
some of the things I talked about in my opening remarks, but a 
lot of those are internal things that would make our 
organization more effective, get the dollars to the ground, and 
get the connection reestablished between the national 
headquarters and the field.
    In the longer term, I think that the whole financial 
management and financial health would be an important part of 
the longer term. I think we need to really look at the 
processes we're using that take so much time to get work done. 
It's very frustrating to our folks in the field, and it's 
frustrating to a lot of us, that we spend so much time and so 
much energy just working our way through the process of NEPA, 
the process of trying to make our projects able to sustain 
challenges in court.
    I believe that we probably do most of the work with the 
first 20 percent of the dollars we get; and the other 80 
percent is spent trying to keep ourselves capable of 
withstanding court challenges. I think that there are some 
things that we can do to streamline the NEPA process, to work 
better with the regulatory agencies so we can work our way more 
quickly through the Endangered Species Act consultation 
process. I'm really interested in trying to find some ways of 
being able to do those things, to find some solutions to the 
process gridlock that I think we're in.
    Senator Craig. Thank you. I think one of the concerns that 
many of us westerners have is that we are in a low-water year 
in the Great Basin West, and there are lots of fuels out there 
to burn. We, again, have the ingredients for what most of us 
are very fearful could be another catastrophic fire season. Due 
to the fact that the fire money only recently arrived in the 
forests, there have been very little--there's been very little 
time for projects to be implemented. And as Senator Bingaman 
noted, many projects selected were on the shelf, in essence. 
What, if any, can be done to expedite the process of reducing 
these fuels?
    Chief Bosworth. Well, I think, again, trying to figure out 
ways of resolving the process gridlock that we're in so that we 
are able to move more quickly. I also think that we have some 
opportunities within our current processes, where we bundle our 
projects together and do our consultation all at one time. 
We're working in some regions right now to develop checklists 
so that the consultation process will go a lot faster, so that 
we know that if we do certain kinds of projects, we won't have 
difficulty in terms of consultation with certain threatened or 
endangered species. So there's some of those kinds of things 
that I think that we can do.
    Senator Craig. What should our communities expect from the 
Forest Service as the 2001 fire season approaches?
    Chief Bosworth. Well, we are continuing to hire 
firefighters to meet our obligations for this fiscal year to be 
at the most efficient level of staffing. We are also getting 
those folks trained. We are working with other agencies to make 
sure that we have a total firefighting workforce that will be 
prepared. We are getting private folks trained, wood workers 
and mill workers for example. We're getting equipment signed 
up. We're getting our air tankers as well as our engines ready 
and we are getting more engines and getting more air tankers 
under contract. So I think that we are doing things that I 
believe need to be done to put ourselves in the best position 
to be able to deal with this fire season.
    Senator Craig. How much actual dissemination of information 
has gone out to the public at the local level--let's say on a 
ranger-district-community-forest basis?
    Chief Bosworth. Well, I'm sure that it depends on 
individual communities. You know, like most of our programs, it 
may be more in one community and less in another. However, I 
think there's been an awful lot of information in newspapers, 
in discussions at community meetings with county commissioners 
about the national fire plan, about that particular forest or 
district's implementation of it. So I think there's a fair 
amount of information that has been going out. I'm sure that we 
can find exceptions out there where it's not as good as we 
would like, but in the traveling around that I have done prior 
to coming to this job, it appeared to me there's an awful lot 
of information getting out there.
    Senator Craig. Good. My last question today, Chief--and we 
chatted about some yesterday--in the first hearing before the 
committee to review the fiscal-1996 budget, the then-Secretary 
Dan Glickman promised the committee, promised me, an analysis 
of the conflicts in the laws and regulations that govern the 
management of the national forests, along with recommendations 
about what should be changed. I've spent a good many hours 
seated here, in hearing after hearing, trying to analyze how we 
best remedy the current formula that seems to result in 
substantial conflict.
    Jack Ward Thomas put considerable effort into producing 
that report. It was completed, but its release was suppressed 
by the Clinton White House, I think, largely because the mantra 
at that time was not to involve those of us in the policy-
making end of things, but to be able to try to govern by 
regulation. And, of course, we saw that effort go forward.
    For the record of this hearing, could you provide the 
committee with a copy of this report? Also, if you choose, 
please feel free to update the report to reflect the passage of 
time or any thoughts you might have as to the remedies to those 
kinds of conflicts.
    Chief Bosworth. I still have never seen a copy of that 
analysis, and we have been looking for a copy of it. I've been 
told that someone thinks they have access to a copy. I do want 
to get it, and I would like to look at it and see if it does 
need some updating and some additional things, and I would like 
to provide it to you. So if we can find it, we'll plan on doing 
that.
    Senator Craig. Sure. Well, I think that would be a valuable 
thing not only to look at, but, as I said, to update, to be 
able to use it as a reference point to go forward, to see if, 
in fact, there needs to some policy adjustment that this 
Congress could agree on that would allow you and the Forest 
Service to be a more effective unit.
    [The following was received for the record:]

    The analysis of the conflicts in the laws and regulations that 
govern the management of the National Forests, along with 
recommendations about what should be changed, is currently being 
reviewed and will be provided as soon as it is available for release.

    Senator Craig. With that, Chief, let me thank you and your 
colleagues for being here today. I'm sure that, over the course 
of the next good number of years, you will be before this 
committee and the subcommittee on more than one occasion. This 
Congress puts a high priority on our national forests, as does 
our public, as I know you do, and we all recognize the 
environment in which they now are and the difficulties that 
that results in. So we will work with you to see if we can't 
improve our forests generally across the country. Again, thank 
you.
    And the full committee will stand adjourned.
    [Whereupon, at 4:13 p.m., the hearing was adjourned.]


</pre></body></html>
